January 2009
Report No. EVAL-09-001

The FDIC’s Corporate Employee Program
                                                                                                              Executive Summary
                                                                                                          Report No. EVAL-09-001
                                                                                                                     January 2009

                                           Evaluation of the FDIC’s Corporate Employee Program
                                           Results of Evaluation

                                           The FDIC has made progress in implementing the CEP. Specifically, the FDIC completed
                                           (1) voluntary rotational assignments through which 189 DSC examiners completed
                                           training in DRR resolutions and receiverships functions and (2) an In-Service Placement
                                           Opportunity Program through which 52 employees transferred to DSC for examiner
                                           training—with 11 of the 52 achieving commissions. In addition, the FDIC hired over 400
                                           new employees and placed 9 existing employees into the 4-year CEP program. Further,
Background and Purpose                     the FDIC developed Claims, Franchise and Asset Marketing, Asset Marketing, and Bank
of Evaluation                              Secrecy Act/Anti-Money Laundering (BSA/AML) Certificate Programs. As of August
                                           2008, CU had 15 CEP classes, of which:
In 2005, the FDIC initiated the
Corporate Employee Program (CEP) to            •   232 FISs had completed the first rotational year,
respond to the growing consolidation           •   220 FISs had earned Claims Certificates,
and complexity within the financial
services industry. The CEP is intended         •   65 FISs had earned Franchise and Asset Marketing Certificates, and
to: (1) provide opportunities for              •   4 FISs had earned examiner commissions.
employees at all levels to identify,
develop, and apply skills in multiple      CU has drafted guidelines and procedures for the CEP. CU has also made program
corporate functions through various        changes when needed, such as altering the length and placement of first-year rotations;
training opportunities and cross-          assigning a CU liaison to each FIS class; providing training to DSC coaches who work
divisional work assignments and            with FISs; enhancing the recruitment process to include “Super Friday” events; and, most
(2) create a workforce that possesses a    recently, instilling greater program flexibility in response to concerns raised by the FDIC
common corporate perspective and is
                                           Chairman.
capable of responding rapidly to
shifting priorities and changes in
workload. The FDIC’s Corporate             Establishing Performance Goals and Evaluating Program Costs
University (CU) manages the CEP.
                                           CU has prepared periodic reports discussing CEP implementation, and CU has established
The initial CEP strategies were to:        learning benchmarks that participants must meet during the program. CU has collaborated
(1) provide current FDIC employees         with the Human Resources Committee (HRC), the Division of Administration’s (DOA)
the opportunity to voluntarily be          Human Resources Branch (HRB), and the CEP Executive Steering Committee since
reassigned to the Division of              inception of the program to identify metrics and discuss program successes. The FDIC
Supervision and Consumer Protection
                                           has also established various performance milestones, targets, divisional strategies, and
(DSC) to become commissioned
examiners through the In-Service           other measures that indirectly relate to the CEP. However, CU could do more in this
Placement Opportunity Program;             regard by establishing performance goals and targets specifically for the CEP and
(2) provide current DSC examiners the      improving how it tracks and monitors overall CEP costs.
opportunity to complete rotational
assignments in the Division of             Participant, Management, and Examiner Views
Resolutions and Receiverships (DRR);
and (3) hire new employees directly        CU survey results indicate that most FISs are either very satisfied or satisfied with their
into the CEP program under non-            development during the first-year rotation and with their decision to accept positions at the
permanent appointments to pursue           FDIC. However, FISs expressed concerns related to the amount of training and
training and practical experience in the
                                           knowledge retention, the lengthy FIS probationary period, and the level of communication
FDIC business lines with the ultimate
goal of obtaining a commission and the     from CU about the rigorous demands of the program. CU has worked to address these
possibility of being converted to          concerns by increasing communication directly with the FISs, enhancing the role of the
permanent employees.                       CEP liaisons, launching the FIS BIZ newsletter, and enhancing the CEP SharePoint site.

CU’s focus in regard to the CEP has        FDIC management from the HRC, DSC, and DRR understand and agree with the basic
been to hire and train entry-level         CEP premise of developing cross-trained employees that are capable of responding rapidly
employees as Financial Institution         to shifting priorities and changes in workload. DSC considers the CEP a good vehicle for
Specialists (FIS) and award certificates   addressing the FDIC’s hiring and developmental needs when the banking industry is
in business line disciplines, such as
                                           healthy, but acknowledged that DSC and DRR require the same cross-trained employees
claims administration.
                                           to address increases in bank examination and resolution activities, which causes a strain on
                                           staffing. The FDIC has employed several strategies to address this concern.
                                                                                                           Executive Summary
                                                                                                       Report No. EVAL-09-001
                                                                                                                  January 2009

                                         Evaluation of the FDIC’s Corporate Employee Program

                                         Results of Evaluation (continued)

                                         Finally, we were told that tenured examiners perceive that FISs are receiving more
                                         opportunities in and greater exposure to other areas of the Corporation, and, as a result,
                                         FISs are in a better position for future advancement than tenured examiners. CU
                                         officials told us that they are addressing these concerns. Although we did not evaluate
                                         the merit of these perceptions, they may warrant continued management attention.
Background and Purpose
of Evaluation                            Production of Cross-Trained Employees, Knowledge Retention, and Expansion of
                                         the CEP
Our objective was to assess the          The FDIC has relied on FISs to help respond to increases in resolution-related activity,
FDIC's efforts to implement the CEP
by determining: (1) the number of
                                         and DRR officials have been complimentary of the FISs’ efforts. We determined that
employees participating and the          as of August 2008, approximately 83 percent of the FIS Claims Certificate holders had
degree to which they have completed      been deployed to assist with bank closing activities. However, DSC and CU
the program, (2) whether the CEP has     deployment information differed significantly. CU should work with DSC and DRR to
stated measurements for gauging          ensure that tracking system information is accurate and can be used to deploy all
program effectiveness, (3) participant   certificate holders to the extent practicable and in a manner that maximizes knowledge
and management views on the              retention.
benefits and success of the program,
and (4) the extent to which the CEP      CU recently notified BSA/AML Certificate holders of a requirement for continuing
has produced cross-trained
                                         education to maintain their certificates and plans to implement a similar requirement
employees capable of responding to
changes in examination or resolution     for all certificate holders as part of CU’s strategic plan.
and receivership priorities.
                                         CEP Expansion Beyond Entry-Level Business-Line Disciplines

                                         In 2004 and 2005, the FDIC informed all FDIC employees that the longer-term plan for
                                         the CEP was to (1) expand the program to provide cross-training opportunities and
                                         expanded job knowledge and skills to include employees from all divisions and offices
                                         and (2) extend the CEP to mid- and senior-level positions. The FDIC has made
                                         progress in this area by awarding Claims and BSA/AML Certificates to non-FIS
                                         employees and deploying non-FISs to assist DRR. In addition, in 2008, the
                                         Corporation offered detail opportunities to all FDIC employees to participate in the
                                         Claims, Franchise and Asset Marketing, and Asset Marketing Certificate Programs.

                                         More work remains to realize the initial concept of expanding the CEP beyond entry-
                                         level employees and the primary business lines. However, that work has been deferred,
                                         justifiably, to address necessary changes to the CEP in light of the current financial
                                         services industry crisis.

                                         Recommendations and Management Response

                                         This report contains six recommendations to strengthen the CEP by enhancing and
                                         finalizing CEP draft policy, establishing performance goals, improving how CEP costs
                                         are identified and measured, developing a system for tracking deployments and
                                         continuing education, ensuring that employees retain and utilize the knowledge they
                                         have gained through the CEP, and clarifying plans for expanding the program.
                                         Management concurred with five of the recommendations and agreed with the intent of
                                         the remaining recommendation. Management plans to implement corrective actions
                                         sufficient to address each recommendation.
To view the full report, go to
www.fdicig.gov/2009report.asp
                               TABLE OF CONTENTS


EVALUATION OBJECTIVE AND APPROACH                                 1

BACKGROUND                                                        2

EVALUATION RESULTS                                                 4
  CEP Participation and Program Completion                         4
  Gauging Program Effectiveness and Program Costs                  6
  Participant, Management, and Examiner Views                     12
  Production of Cross-Trained Employees and Knowledge Retention   14

OTHER MATTER                                                      17
  Recruitment                                                     17

OVERALL CONCLUSIONS AND RECOMMENDATIONS                           19

CORPORATION COMMENTS AND OIG EVALUATION                           20

APPENDIX I: Objective, Scope, and Methodology                     22
APPENDIX II: FIS Class Information                                25
APPENDIX III: CEP Changes from 2005 to 2008                       26
APPENDIX IV: CEP FIS Benchmarks                                   28
APPENDIX V: CEP Rotational Year Program Costs                     29
APPENDIX VI: CU Survey Results of the FISs                        30
APPENDIX VII: Corporation Comments                                31
APPENDIX VIII: Management Response to Recommendations             36

TABLES
Table 1: OIG Observations on Certificate Holder Deployments       15
Table 2: FIS Class Statistics                                     25
Table 3: CEP Program Changes Since Program Inception              26
Table 4: Yearly Program Costs                                     29

FIGURES
Figure 1: CEP Program Satisfaction Ratings                        30
Figure 2: FISs’ Views on Ability to Perform Business Line Work    30
Federal Deposit Insurance Corporation                                                               Office of Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                                Office of Inspector General



DATE:                                           January 9, 2009

MEMORANDUM TO:                                  Thom Terwilliger
                                                Chief Learning Officer
                                                Corporate University


                                                [Signed]
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Evaluations and Management

SUBJECT:                                        The FDIC’s Corporate Employee Program
                                                (Report No. EVAL-09-001)


This report presents the results of our evaluation of the FDIC’s Corporate Employee Program
(CEP). The FDIC initiated the CEP to respond to the growing consolidation and complexity
within the financial services industry. The CEP is intended to: (1) provide opportunities for
employees at all levels to identify, develop, and apply skills in multiple corporate functions
through various training opportunities and cross-divisional work assignments and (2) create a
workforce that possesses a common corporate perspective and is capable of responding rapidly
to shifting priorities and changes in workload. The FDIC’s Corporate University (CU)
administers the CEP.


EVALUATION OBJECTIVE AND APPROACH
Our objective was to assess the FDIC's efforts to implement the CEP by determining:

•      the number of employees participating in and the degree to which they have completed the
       program,
•      whether the CEP has stated measurements for gauging program effectiveness,
•      participant and management views on the benefits and success of the program, and
•      the extent to which the CEP has produced cross-trained employees capable of responding to
       changes in examination or resolution and receivership priorities.

To accomplish our objective, we reviewed relevant corporate and CU documents and
interviewed FDIC management. We performed our evaluation from April to August 2008 in
accordance with the Quality Standards for Inspections. Details on our objective, scope, and
methodology are listed at Appendix I.
BACKGROUND
The FDIC introduced the CEP in late 2004. According to FDIC memoranda describing the CEP,
the program is intended to:

•    provide employees with skills needed to address significant spikes in business line
     workloads that may temporarily require shifting resources across business lines; 1
•    promote a corporate perspective and a corporate approach to problem solving;
•    facilitate communication and the transfer of knowledge across all business lines, and foster
     greater career opportunity and job satisfaction.

The original concept of the CEP involved a three-prong implementation approach in the business
line divisions with plans to eventually extend the CEP to employees from all FDIC divisions and
offices and to mid- and senior-level positions. In 2005, the FDIC began pursuing the three initial
strategies for implementing the program, as described below:

•   Crossover Program – a voluntary program to begin to integrate key corporate skill sets across
    business lines. The crossover program allowed DRR staff to apply for an In-Service
    Placement Opportunity Program in DSC under which DRR staff would be required to obtain
    commissioned examiner status within a specific time frame. The FDIC extended the
    crossover program to FDIC employees in other organizations in addition to DRR.
•   Voluntary Rotational Assignments – a voluntary DSC to DRR program provided DSC
    examiners opportunities to receive training and practical experience in resolutions and
    receivership functions and to earn a commission in resolutions and receivership work.
•   New Hiring – hiring and training “Corporate Employees” at the CG-5 or CG-7 grade level
    under term appointments to pursue commissioned examiner status in either Risk
    Management or Compliance. While the new “Corporate Employees” pursue an examiner
    commission, they simultaneously receive training in resolutions and receivership functions
    with the ultimate goal of obtaining a commission and the possibility of being converted to
    permanent employees. 2

The first CEP class started in June 2005 and consisted of FDIC employees participating in the
crossover program as well as new hires. Since then, CU’s focus in regard to the CEP has been to
hire and train entry-level employees as Financial Institution Specialists (FIS) and to award FDIC
certificates to CEP FISs and non-FIS employees in functional areas that are critical to the
mission of the FDIC. The FDIC has established Certificate programs in the following areas:

•   Risk Management – Bank Secrecy Act and Anti-Money Laundering.



1
  Division of Supervision and Consumer Protection (DSC), Division of Resolutions and Receiverships (DRR),
Division of Insurance and Research (DIR).
2
  CEP participants hired from outside the FDIC are appointed under the Federal Career Intern Program Schedule B
hiring authority [5 CFR 213.3202(o)]. This is a time-limited excepted service appointing authority that provides for
non-competitive conversion to a permanent, career, or career-conditional appointment in the competitive service.
US Office of Personnel Management authorized (in February 2005) the FDIC’s modification of the Federal Career
Intern Program Schedule B hiring authority (5 CFR 213.3202(o)) to allow 3-year initial appointments.


                                                         2
•   Resolutions and Receiverships – Claims, Franchise and Asset Marketing, and Asset
    Marketing.

CU, in collaboration with other FDIC divisions and offices and the Corporate Employee Steering
Committee, is responsible for administering the CEP and establishing policies and procedures
associated with the program. The CEP Program Director oversees the execution of all policy and
program components that are related to the CEP and is supported by a staff of two managers,
professional staff, administrative staff, and CEP class liaisons. 3 Rotational supervisors in DSC,
DRR, and DIR are responsible for assigning experienced employees to serve as coaches to
closely guide CEP FISs through their respective rotations to the business lines.

During the first year of the CEP, FISs are provided basic exposure to each of the FDIC’s key
business lines through a rotational program. After completion of the first year, FISs are assigned
to a specific commissioning track in risk management or compliance. In October 2008, the
FDIC added additional commissioning tracks for resolutions and receiverships. Upon successful
completion of the CEP (3-4 years), FISs earn a commission in their primary area of
specialization and competency certifications in specialized areas outside of their primary area of
specialization.

The December 2004 CEP concept paper contemplated expanding the program to mid- and
senior-level employees beyond the business line organizations and set forth the following as
desired outcomes for the program:

•   The CEP’s initial focus would be primarily on the business lines, mostly DSC and DRR, but
    the expectation was to identify other areas within the Corporation where a program like the
    CEP could be applicable.
•   The CEP is based on the premise that DSC will initially serve as a resource for corporate
    needs elsewhere (primarily DRR) and that over time, the FDIC will evolve toward a
    workforce throughout the Corporation in which employees at all levels will have training and
    experience in multiple disciplines or business lines.




3
 Beginning with the February 2007 CEP class, CU assigned each CEP class a CU liaison – a single individual to act
as a CU point of contact for the FISs and liaison for the FDIC field offices where the CEP FISs are assigned.


                                                       3
EVALUATION RESULTS

CEP Participation and Program Completion
The FDIC has made progress in implementing the CEP. Specifically, the FDIC completed
voluntary rotational assignments through which 189 DSC examiners completed training in DRR
resolutions and receiverships functions and an In-Service Placement Opportunity Program
through which 52 employees transferred to DSC for examiner training—with 11 of the 52
achieving commissions.

In addition, the FDIC hired over 400 new employees and placed 9 existing employees into the
4-year CEP program. As of August 2008, CU had 15 CEP classes, of which:

•   232 FISs had completed the first year of the program.
•   220 FISs had earned Claims Certificates.
•   65 FISs had earned Franchise and Asset Marketing Certificates.
•   4 FIS had obtained their examination commissions.
•   30 and 60 FISs were expected to obtain their commissions in 2008 and 2009, respectively.

Appendix II provides detailed information about individual FIS classes, first year completion
rates, and certificates and commissions earned.

CU is currently working with DRR to complete the development of the DRR commissioning
program and expects it to begin in October 2008. The program will offer two commissioning
tracks, in bank resolution and receivership management, with the expectation that FISs should
achieve their commissions within 3 years. DRR expects to have 24 FISs with commissions or in
the process of obtaining commissions by 2010.

CU has also drafted policies and procedures for the CEP, established certificate programs for
several FDIC business line disciplines, taken steps to reduce program attrition, and made
changes to the CEP when needed, as discussed in the following sections.

CEP Policies and Procedures: CU is developing policies and procedures for the CEP,
including a draft CEP Directive. CU also has published an On-the-Job Reference Guide for FISs
that includes information about each rotation during the first year of the program. Further, CU
has documented benchmark requirements for the FISs, procedures for evaluating FISs’
performance, and continuing education requirements for maintaining Certificates.

We reviewed the draft CEP directive and noted that it addressed areas such as: general policy;
roles and responsibilities; training plans; hiring and training guidelines; and program
administration and evaluation. We are recommending that CU enhance its draft directive to
ensure that it sufficiently addresses:

•   the mission, desired program outcomes, and scope of the CEP;
•   policy for setting performance goals and targets and capturing and reporting performance
    measurement information and gauging program success;


                                                4
•   policy for identifying and monitoring CEP program costs; and
•   the roles and responsibilities of relevant divisions, offices, and committees such as the HRC
    in managing the CEP.

Certificate Programs: Beginning in 2006, CU implemented the Certificate Program to give
employees an opportunity to develop and maintain skills in functional areas that are critical to
the mission of the FDIC. The Certificate Program also enables the FDIC to be more responsive
to changes in the financial services industry. Certificate holders are called to assist the
division/office of their certified areas in the event of a mission-critical need. As discussed
earlier, CU offers certificates in Claims, Franchise and Asset Marketing, Asset Marketing, and
BSA/AML. CU expects this credential, an FDIC certificate, to be valued and respected in the
financial industry based on the rigorous development program, the certification requirements,
and the strong reputation of the FDIC.

Originally, as a requirement for commissioning, FISs were expected to obtain two certificates in
an area different from their commissioning track prior to receiving a promotion to a CG-12.
However, in June 2008, the FDIC Chairman requested that revisions be made to the CEP to
respond to increasing workloads in DSC and DRR. The Chairman’s request prompted a program
change that FISs only have to obtain one certificate outside of their commissioning track.

Non-FIS FDIC employees may also participate in the Certificate Program to gain proficiency in
essential corporate functions through a combination of classroom and/or computer-based
instruction (CBI) programs, on-the-job training and experience, and virtual bank simulations. To
be awarded a certificate, employees must complete a development program, receive an
attestation of their skill readiness by their host supervisor, and perform successfully on a
knowledge assessment in the form of a computerized test.

Program Attrition: Overall attrition for the CEP is 15.4 percent, which includes 5 percent of
the FISs who left after completing the first-year rotation. Attrition has significantly declined
from 29.4 percent in 2005 to 1.4 percent in 2008. CU attributes the decline in attrition to the
proactive measures it has taken to address FIS concerns in the areas of recruiting,
communicating program requirements, revising the compensation structure, conducting coaches
training, and changing the length of the DRR and DSC risk management rotations.

CEP Changes: Based on feedback from FISs, DSC, DRR, and the FDIC Chairman, CU has
been responsive and made changes to the CEP program related to:

•   the first year rotation schedule,
•   recruiting,
•   certification requirements,
•   the number of classes,
•   the addition of class liaisons and coaches, and
•   the CEP organizational structure.

Appendix III details these program changes.



                                                 5
One of the most noteworthy changes to the CEP was the implementation of “Super Friday”
recruiting events. In 2005, CEP participants who were surveyed indicated that they were not
satisfied with the hiring process. Specifically, participants gave low ratings in the areas of
timeliness of their selection as CEP FISs and the quality of information they received. In
response, CU, through the FDIC Recruitment Task Force, implemented CEP “Super Friday”
recruiting events starting in 2006. Under the Super Friday approach, qualified candidates are:

•   brought to FDIC headquarters to participate in a wide range of activities to enhance their
    interest and consideration for FDIC employment as FISs;
•   invited to a reception and dinner in the headquarters dining room where FDIC executives and
    senior DSC examiners make presentations;
•   given a tour of FDIC’s Board Room and Risk Analysis Center; interviewed; and required to
    attend a number of corporate orientation sessions, benefits presentations, CEP breakout
    panels, and various information booths; and
•   extended offers for employment at the end of the “Super Friday” recruiting event.

According to DSC, 988 candidates 4 have been invited to “Super Friday” events, of which 694
have attended. The FDIC has also conducted telephone interviews with candidates. The FDIC
has offered positions to 394 candidates of which 352 accepted. CU told us that since beginning
the “Super Friday” recruiting events, the FDIC’s offer declination rate has decreased from
30 percent to 11 percent. CU attributes the decrease in declination rates to the implementation of
“Super Friday” events because the Corporation has an opportunity to better communicate that it
is an employer of choice by bringing qualified candidates to headquarters so that they can see
and learn about the Corporation and meet with officials at all levels. According to CU, further
evidence that “Super Friday” events are successful is the fact that even when there has been a lag
time between an offer acceptance and the actual start date, only a few candidates have
subsequently declined FDIC offers.

CU conducts a pre-orientation survey that also rates such things as the: timeliness of the
selection process; quality of information received; and assistance with travel and lodging. CU
also conducts a post-orientation survey of candidates that asks for feedback on: lunch with
division directors, reception, training materials, and overall orientation. CU reported that since
the “Super Friday” recruiting events were implemented, participants reported improved
satisfaction with the hiring process.


Gauging Program Effectiveness and Program Costs
CU has prepared periodic reports assessing CEP activities, especially for the first-year rotation,
and CU has established CEP Benchmarks that provide guidelines for completing FIS first-year
training. The CEP Benchmarks, which must be successfully completed to move to the second
year of the program, are included as Appendix IV. CU officials told us that CU has collaborated
with the HRC, HRB, and CEP Executive Steering Committee since inception of the CEP to

4
  Regarding the number of candidates invited to Super Friday events, DOA staff explained that the FDIC invites
three candidates for every vacancy, consistent with US Office of Personnel Management requirements.


                                                        6
identify metrics and to discuss program accomplishments. The FDIC has also established
various performance measures that indirectly relate to the CEP. However, as the program
matures, CU could do more in this regard to (1) formally establish performance goals or targets
specifically for the CEP and (2) systematically capture and monitor overall CEP program costs,
including CEP-related costs incurred by other divisions and offices. Doing so could help CU
better assess program success and program cost efficiency.

GAO’s A Guide for Assessing Strategic Training and Development Efforts in the Federal
Government (Report number GAO-04-546G, dated March 2004), emphasizes the importance of
an entity being able to evaluate its training programs and improve the entity’s performance and
identifies the Kirkpatrick 5 five-level assessment approach as a commonly accepted training
evaluation model. The sidebar presents the five Kirkpatrick levels of assessment.

GAO and the Kirkpatrick Model suggest that               Kirkpatrick Five-Level Assessment
the entity should systematically plan for and            Level I: Reaction – How does the learner feel about
evaluate the effectiveness of its training and           the training?
development efforts and the extent to which              Level II: Learning – What facts or knowledge did the
these efforts contribute to the                          learner gain?
accomplishment of entity goals and                       Level III: Behaviors – What skills did the learner
                                                         develop? What new information is the learner using on
objectives.                                              the job?
                                                         Level IV: Results or Effectiveness – Did the learner
Efforts to Evaluate the Program: CU has                  apply the new skills to the necessary tasks in the
taken a number of positive steps toward                  organization? If so, what results were achieved?
evaluating the success of the CEP, including             Level V: Return On Investment – How does the
                                                         monetary value of results of the program compare with
collecting data through surveys and informal             the related costs?
meetings with CEP participants during the
first-year rotation, at the end of every
rotation, and at graduation (end of first year). These methods achieve Levels I, II, and III of the
Kirkpatrick Model. CU has also discussed performing an overall assessment of the CEP’s
effectiveness, including the first and subsequent years of the program, in two documents.

•   CU indicated in its Corporate Employee Program New Hire Program report, dated July
    2007, that CU’s longer term evaluation plan includes following CEP participants through the
    4 years of the program to “measure the success of the overall program.”
•   During the course of our review, CU updated its draft CEP directive to expand the provision
    for program evaluations. Specifically, the directive provides that an evaluation of the CEP
    will include gauging organizational impact in the areas of communication, knowledge
    transfer, and increased career opportunities.




5
   Donald L. Kirkpatrick (author of Evaluating Training Programs: The Four Levels) conceived a commonly
recognized four-level model for evaluating training and development efforts. The fourth level is sometimes divided
into two levels with the fifth level representing a comparison of costs and benefits quantified in dollars.


                                                        7
CU has also prepared periodic reports discussing CEP progress and implementation, such as:

•   A January 2005 progress report on the vision and objective for the CEP to the HRC that
    included a CEP vision statement and plans for a common training program, resolutions and
    receiverships commissioning process, certification programs, and recruiting.
•   A July 2007 program evaluation results report to the HRC entitled, Corporate Employee
    Program New Hire Program that identified program accomplishments (from June 2005 CEP
    inception to June 2007), major program adjustments, and areas for continuing improvement,
    with a focus on the first year (rotational year) of the 4-year CEP.
•   A May 2008 briefing for the FDIC Chairman on the certificate program, CEP participant
    feedback, and projections for CEP participants becoming commissioned examiners.

During the course of our review, CU was drafting a report for the HRC identifying CEP progress
for the period July 2007 through June 2008.

Still, as discussed in the next two sections, CU could enhance its efforts to evaluate program
success by establishing CEP-specific performance goals and by improving how it tracks and
monitors overall CEP costs.

Performance Goals: The FDIC’s strategic plan is implemented through the Corporation’s
Annual Performance Plan (APP), which includes annual performance goals (APG), indicators,
and targets for each strategic objective within the three major program areas – Insurance,
Supervision, and Receivership Management. The performance goals use a mix of output and
outcome-related targets to measure the FDIC’s efforts toward accomplishing its mission and
strategic goals.

The FDIC also develops internal Corporate Performance Objectives (CPO) during the annual
planning and budget process that are approved by the FDIC Chairman. The CPO document
defines performance targets to be accomplished on an annual basis. Many of these objectives cut
across organizational lines and provide a mechanism for managing the performance of FDIC
organizations from a corporate perspective. We identified the following CEP-related corporate
goals and objectives:

•   APGs: – The Corporation identified CEP-related activities as means and strategies necessary
    to accomplishing Receivership Management performance goals. The Corporation’s Annual
    Performance Plans for 2006, 2007, and 2008 include statements regarding the FDIC’s
    continued implementation of the CEP to create a flexible permanent workforce capable of
    responding to changing workload requirements.

•   CPOs: – The FDIC had CPO milestones in 2005, 2006, and 2007 for the establishment and
    continued development of the CEP toward accomplishing the objective of encouraging and
    promoting a motivated, high-performing, and results-oriented workforce. In addition, one of
    the Resource Management CPO initiatives—ensure that the FDIC has the necessary skills in
    its workforce on an ongoing basis to manage risks to the insurance fund by effectively
    addressing current and emerging safety and soundness and compliance risks—included the
    following three actions and milestones related to the CEP:


                                                8
     (1) Bring on-board examiner staffing, including employees in the CEP, up to full authorized
         levels by year-end 2008.
     (2) Enhance the Corporation’s ability to attract high-quality candidates for the CEP and
         other key FDIC occupations by developing and implementing initiatives to raise the
         profile and stature of the FDIC on campuses and enhancing the effectiveness of the
         FDIC’s recruiting program.
     (3) Assess employee retention of knowledge from the first-year CEP cross-disciplinary
         training curriculum and determine whether changes are needed to that curriculum.

In a 2007 report, 6 GAO recommended that the FDIC take steps to identify meaningful, outcome-
based performance measures to include in its training scorecard and communicate available
performance results to all FDIC employees. The FDIC responded that, in the case of the CEP,
CU had plans to conduct extensive multi-year evaluations intended to provide the FDIC with
information about the extent to which the goals of the program are achieved and using outcome-
based performance measures such as:

•   the effectiveness of the training experience,
•   the adequacy of the benchmarks selected,
•   how well prepared participants are for their required schools,
•   frequency and amounts of awards and promotions, and
•   participants’ progress toward attaining a commission.

CU took steps in 2006 and 2007 to develop a scorecard approach 7 to establish a broad range of
performance measures for the FDIC’s training activities, including the CEP. However, CU opted
to discontinue the use of its scorecard in 2008. 8

In light of GAO’s recommendation that the Corporation take steps to identify outcome-based
performance measures for the CEP and our observations regarding the FDIC’s CEP-related
performance goals and targets, CU should do more to establish (1) a clear description of
program-specific goals regarding what the CEP is expected to achieve and (2) agreed-upon
performance measures to determine progress toward achieving the CEP goals. For example,
CEP goals, performance measures, and results could be established and communicated to
employees (through a scorecard approach or on the CEP internal Web site) for areas such as
attrition rates, CEP costs, recruiting accomplishments, certificates earned, commissions earned,
continuing education activities, and system development efforts. Potential program goals could
be to: maintain an attrition rate no greater than 8 percent, graduate 85 percent of CEP
participants from the program, or decrease CEP costs by 2 percent over the next 3 years.



6
  FDIC Human Capital and Risk Assessment Programs Appear Sound, but Evaluations of Their Effectiveness
Should Be Improved, GAO-07-255, dated February 2007.
7
  The scorecard concept employs a simple grading system common in many businesses: green for success, yellow
for mixed results, and red for unsatisfactory. Scorecards track how well divisions and offices are executing their
goals and objectives.
8
  CU responded to GAO that it replaced the scorecard with CEP developments and FIS success stories reported on
the CEP Web site.



                                                         9
During the course of our evaluation, we discussed with CU officials the need to establish CEP-
specific performance goals and targets. In October 2008, CU drafted a pamphlet, “Corporate
Employee Program Update” intended to provide senior management and program stakeholders
CEP results and accomplishments. CU plans to issue the update monthly. The October 2008
draft program update graphically depicts data regarding: attrition rates, CEP graduates by
discipline, status of school starts, 9 passing scores for accounting fundamentals testing, and CEP
Web site statistics. Establishing CEP-specific goals aligned with those areas presented in the
Update can help senior management and stakeholders understand what the CEP is trying to
accomplish (goals and targets) and how it is progressing in the respective areas (performance and
results).

Evaluating Overall CEP Costs: CEP officials told us that program costs for the CEP can be
expressed in two ways, namely through (1) CEP’s annual operating budget and (2) CU’s
estimated cost of training for the first year of the program, on an average per-student basis. We
noted that the two approaches do not treat certain expenses consistently and may not include
costs incurred for all aspects of the CEP. However, CU is taking steps to better track and
monitor costs associated with the CEP, which is a good first step towards being able to evaluate
the cost-effectiveness of the program.

GAO’s guidelines on assessing training efforts cite the importance of an agency obtaining and
tracking the cost of its training and development programs. GAO states that because the
evaluation of training and development programs can aid decision makers in managing scarce
resources, agencies need to develop evaluation processes that systematically track the cost and
delivery of training and development efforts and assess the benefits of these efforts.

The FDIC also emphasizes the importance of determining the complete costs of a program.
FDIC Circular 4000.2, Cost Management Program (CMP), dated March 16, 2007, states that the
CMP was implemented to provide reliable and timely information about the full cost of the
FDIC’s business processes, activities, and outputs on a regular basis and to assist managers in
making decisions about allocating resources, evaluating program performance, and improving
efficiency and effectiveness. The Circular further states that this information will, among other
things, enable the FDIC to better manage corporate support and overhead costs.

CU officials told us that, in their view, the costs that should be considered when addressing the
overall cost of the CEP consist primarily of salaries, benefits, and travel as presented in CU’s
operating budget for the CEP. CU officials indicated that they considered costs beyond those
included in the CEP budget for the FISs’ first-year rotation to be the same as costs incurred for
career development for other (non-FIS) FDIC employees, which are separately budgeted for by
operating divisions. CU’s 2008 operating budget for the CEP is $17.6 million and includes
amounts for salaries, benefits, and travel for CEP staff and CEP participants in the first year of
the program.




9
  Training for the FISs includes Financial Institution Analysis School, Loan Analysis School, Fair Lending School,
and Community Reinvestment Act School.


                                                        10
In its Corporate Employee Program New Hire Program report, dated July 2007, CU estimated
the cost of training in the CEP’s one-year rotational program at approximately $44,000 per
student. Salary and travel expenses of the students to attend classroom training accounted for 86
percent of the per student cost. CU’s report noted that the expenses used to estimate the $44,000
per student cost included both course developmental costs (costs related to creating a course –
planning, designing, and constructing) and delivery costs (expenses related to CU staff,
instructors, subject matter experts, and hired outside contractors and services) as well as the
student’s travel and salary for time attending training. CU provided a schedule of the costs used
to arrive at the $44,000 per student cost for the CEP. CU’s schedule is shown in Appendix V. 10

We noted that the two approaches—CEP’s operating budget versus the per-student cost—are
different in how they treat:

•    salaries and benefits; e.g., the operating budget includes total FIS salaries while the per-
     student cost excludes a portion of the FIS salaries attributable to when FISs are participating
     in risk management and compliance examinations; and
•    travel; e.g., the operating budget includes travel for CEP staff and participants while the per-
     student cost includes travel associated with DRR and DIR classes, as well as for CEP
     orientation and graduation.

Neither of the two approaches includes non-CU, CEP-related costs such as costs associated with
“Super Friday” recruiting events or an allocable portion of DSC CEP coaches’ salaries and
benefits.

In September 2008, CU established a new program code for the CEP, which should bring
uniformity to how CEP program costs are calculated and tracked. According to the Division of
Finance’s Cost Management and Time Reporting Coding Guide, the program code should be
used by (1) FISs for their first-year training activities and (2) CU employees, detailees, and
regional personnel for activities associated with the administration, oversight, and management
of the CEP. As defined, the new program code does not cover tasks associated with:
preparation, delivery, and assessment of formal classroom training; CEP course development 11
and enhancements; and CEP recruitment events and “Super Friday” activities. We would
suggest that management consider redefining the tasks and activities that should be charged to
the program code in order to capture all aspects of the CEP. Nevertheless, the establishment of
such a mechanism to capture the information is a positive step. Doing so should enable
management to establish a baseline for costs—regardless of how they are defined—that can then
be used to better determine how the CEP results compare with the related cost of the program on
an ongoing basis.




10
   We notified CU of an apparent mathematical error in its calculations. It appears that the per student, rotational
year cost should be $47,060.
11
   One-time costs, such as costs for course development possibly should be amortized over the expected life of the
course.


                                                         11
Participant, Management, and Examiner Views
FIS Views 12 : CU survey results indicate that most FISs are either very satisfied or satisfied with
their development during the first year rotation and with their decision to accept positions at the
FDIC. CU surveys the FISs at the end of the first-year rotation. CU told us that they received
close to 100 percent participation in these surveys. The FISs reported being confident in their
ability to assist in DRR Claims and Proforma and Settlement efforts and DSC Compliance and
Risk Management examinations. The FISs reported being less prepared to assist DRR Franchise
and Asset Marketing efforts. See Appendix VI for details of the survey results.

In October 2007, FDIC employees (including the FISs) participated in a corporate-wide
Employee Engagement Survey. The survey identified several key areas of strength in the FDIC
workplace environment (job satisfaction, clarity of the corporate mission, physical work
environment, etc.) as well as some aspects of the corporate culture that present opportunities for
improvement (enhancing open communications, encouraging greater employee empowerment,
ensuring fair treatment of all employees, etc.). Sixty FISs in the first-year rotation responded to
the survey. The FISs had the most favorable views of all FDIC employee groups in the area of
overall satisfaction and mission and strategy. 13

In 2007, the Chairman’s Diversity Advisory Council (CDAC) 14 reported a rising concern among
FISs regarding the: amount of training given the FISs, expectations of the CEP program,
perception that opportunities for FIS training may be lacking in understaffed offices, and
opportunities to implement training in real corporate situations. Through the CDAC, the FISs
raised similar issues again in 2008 and added a concern about the retention of concepts learned
during training.

CU responded to the CDAC that it continually evaluates the CEP and makes adjustments to the
program based on feedback from FISs as well as FDIC management. CU also explained that the
CEP is designed to be rigorous with specific required performance benchmarks and that it
monitors attrition rates and underlying causes for FIS departures from the FDIC. According to
CU, attrition rates continue to be low, and FIS confidence levels after each rotational experience
are high. Further, CU enhanced communication by: having the Chief Learning Officer meet with
FISs during his field office visits to discuss the program; having the CEP Director visiting
regional and field offices during their meetings and conferences; initiating an on-line newsletter,
FIS BIZ; hosting training for CEP class liaisons; and sponsoring additional regional coaching
sessions for examiners. Since the program is in its third year, CU is in the process of conducting
an organizational impact study of whether the rotational experiences are helping to improve the
performance of the FDIC’s examiner workforce compared to the commissioning process used
prior to the implementation of the CEP.


12
   Due to the FISs’ heavy workload, we elected not to interview the FISs and instead use other sources to obtain
their views on the CEP.
13
   The FISs had less favorable views on the amount of travel. However, we noted that the FIS job announcement
clearly states that there could be travel 1-3 weeks per month.
14
   The CDAC’s mission is to provide advice to the FDIC Chairman through the Director of the Office of Diversity
and Economic Opportunity on diversity-related issues and concerns.


                                                       12
FDIC Management Views: FDIC management we interviewed from the HRC, DSC, and DRR
understand and agree with the basic CEP premise of developing cross-trained employees that are
capable of responding rapidly to shifting priorities and changes in workload. Management
agrees that the first-year rotation is important in developing cross-trained employees and has
seen direct benefits of the CEP through FISs’ participation in the recent increase in resolutions
and receivership activities. DRR has also been very complimentary of the FISs’ performance.

DSC considers the CEP a good vehicle for addressing the FDIC’s hiring and developmental
needs when the banking industry is healthy but acknowledged that DSC and DRR require the
same cross-trained employees to address increases in bank examination and resolution activities,
which causes a strain on staffing. The FDIC has employed several strategies to address this
concern, including: hiring mid-career examiners and retired annuitants, increasing recruiting and
holding additional classes for FISs, increasing the frequency of opportunities for FDIC
employees to earn certificates, and detailing staff from other divisions and offices to assist where
needed.

DSC regional and field office management expressed concerns that the first-year rotation, which
is the major difference from the prior commissioning process, prevents DSC from having newly
hired staff available to immediately assist on examinations. In June 2008, the Chairman
requested that CU make temporary changes to the CEP in order to respond to DSC and DRR’s
immediate need for staff to assist in the increase in examination and resolution and receivership
activities. CU responded to the Chairman’s request by:

•   Temporarily extending the DRR and DSC risk management rotations to allow FISs to
    immediately apply what they are learning, in a productive way, in failed bank and pre-failure
    situations and on risk management examinations. CU plans to evaluate the need to continue
    the extended rotation beyond 2009 but intends to return to the 12-month, traditional schedule
    as soon as practicable.
•   Adding a January 2009 CEP class to increase the number of employees available to help with
    immediate workload needs.
•   Staggering the order of rotations by having some classes start immediately in either the DSC
    risk management or DRR rotations.

DSC and DRR officials also expressed to us the need for CU to improve communication of FIS
performance problems during the first-year rotation. These officials noted that because the CEP
is a corporate program, CU should provide information on FIS performance issues to DSC and
DRR. A CU official told us that the CEP class liaison contacts the FIS’s supervisor prior to the
start of each rotation to verbally discuss any performance or conduct issues. However, CU
acknowledged that sometimes the feedback from the FIS’s prior rotation supervisor is delivered
too late to inform the next rotational supervisor in a timely manner. CU explained that it does
not provide written documentation of FIS performance/conduct issues because, as the supervisor
of record for all FISs during the first-year rotation, it is CU’s responsibility to handle
performance/conduct matters pertaining to the FISs. However, CU does share all pertinent
information verbally with each rotation supervisor. CU also does not discuss performance or
conduct issues that are in the investigation stage. Going forward, CU plans to prepare separate




                                                13
reports of all letters of warning issued to FISs along with the status of actions for each region’s
administrative regional director.

DSC Commissioned Examiners Views: DSC regional and field office management told us that
tenured examiners perceive that they have not been recognized for the valuable work that they
have done for years, while FISs, who are term employees, are recognized for completing the first
year of the program.

DSC regional and field office management also told us that tenured examiners perceive that the
FISs are being given greater opportunities and exposure to other areas of the Corporation and
placed in a better position for future advancement than tenured examiners due to their cross-
training in DRR. We noted that tenured examiners raised similar concerns through CDAC in
2006. DSC responded to those concerns by citing the cross-divisional training opportunities
available to tenured examiners and developmental opportunities outside of an employee’s
primary occupation. In 2007 and 2008, CDAC reported additional tenured examiner concerns
related to the amount of training that FISs received and the fact that examiner compensation at
the CG-12 level may be less than what inexperienced FISs were earning in the same location.

CU told us that it is aware of tenured examiners’ perceptions and is addressing these concerns by
expanding certificate programs to non-FIS employees and conducting DSC CEP coaches’
training to increase examiner knowledge about the CEP. The CEP Director also indicated that
she has met with CDAC to address non-FIS employee concerns, attended the San Francisco
Regional Training Conference to communicate directly with examiners about the CEP, and
presented information about the CEP at regional DSC field supervisor meetings.

We did not attempt to evaluate the merit of tenured examiner perceptions, and we are not making
recommendations in this area. However, these perceptions could affect examiner morale and
CEP program acceptance. Accordingly, we encourage the Corporation to continue to look for
opportunities to address these views and perceptions.


Production of Cross-Trained Employees and Knowledge Retention
As illustrated previously, the CEP is producing cross-trained employees. The FDIC has relied on
FISs to help respond to increases in resolution-related activity, and DRR officials have been
complimentary of FISs’ efforts. CU has developed or is in the process of developing continuing
education requirements for its certificate programs and is also beginning to evaluate knowledge
retention by surveying the FISs.

Cross-Trained Employees: We determined that as of August 2008, FDIC had deployed
approximately 83 percent of the FIS Claims Certificate holders to assist with bank closing
activities. Table 1 presents the results of our analysis of CU and DSC’s data on
certificate-holder deployments.




                                                 14
    Table 1: OIG Observations on Certificate-Holder Deployments
     • 155 of 220 FISs with Claims Certificates have been deployed to DRR to assist in
         resolution activity (16 who earned certificates in 2007 have not been deployed).
     •   29 FISs with Claims Certificates have been deployed more than once to assist DRR
         with resolution activity.
     •   40 of 60 non-FIS employees with Claims Certificates have been deployed to DRR to
         assist in resolution activity (2 who earned certificates in 2006 and 4 in 2007 have not
         been deployed).
     •   9 non-FIS employees with Claims Certificates have been deployed more than once to
         assist DRR in resolution activity.
     •   5 of 12 BSA/AML Certificate holders have been deployed to assist DSC.
     •   None of the 65 FISs with Franchise and Asset Marketing Certificates have been
         deployed to assist DRR (includes 31 who earned certificates in 2007).
    Source: OIG analysis of CU and DSC certificate-holder deployment information.

While this level of deployment is commendable, we noted that DSC and CU deployment
information differed significantly, with CU’s tracking system indicating that approximately
33 percent of the FIS Claims Certificate holders had been deployed while DSC’s data indicated
that approximately 74 percent had been deployed.

CU officials acknowledged that tracking of certificate-holder deployments could be improved
and indicated that CU is working with DSC to devise a new database to replace the existing
spreadsheet currently used to manage certificate-holder deployments. Specifically, CU told us
that:

•   CEP Team Members will be working with DSC to update certificate-deployment information
    as part of the transitioning to the new database.
•   CU will be responsible for entering new certificate holders into the database upon receipt of a
    certificate.
•   CU will work with DSC to enter the deployment information for FISs within the first year of
    the CEP.
•   DSC Administrative personnel will be responsible for updating deployment information for
    FISs that have graduated from the rotational period of the CEP.
•   CU will work with DRR to track deployment of non-DSC certificate holders in the new
    database.

These actions should help to clarify responsibility for selecting, deploying, and tracking
certificate-holder information and ensuring that deployment tracking system information is
accurate for decision-making purposes.

Knowledge Retention: CU has made some progress in implementing knowledge retention
strategies, but could do more to ensure that FIS and non-FIS certificate holders remain proficient
in their certified disciplines by developing and implementing continuing education requirements
and by conducting post-deployment evaluations of certificate-holder performance.




                                                     15
In June 2008, CU notified FDIC BSA/AML certificate holders that annual continuing education
requirements are being implemented. The certificate holders must participate in two
examinations per calendar year and mandatory self-study and review of all issued internal
guidance relating to BSA/AML since the candidate’s certification date. At our exit conference,
CU told us that they plan to require similar continuing education requirements for all certificate
holders as part of CU’s strategic plan. We saw several examples of CU efforts to establish
continuing education requirements:

•   In the second quarter 2008 FDIC Performance Report, CU reported that it is in the process of
    establishing plans and procedures to evaluate certificate holders’ performance after each
    bank closing deployment. The approach includes discussing knowledge retention and job
    performance with both supervisors and participants.

•   In a recent Expression of Interest related to the pilot DRR Asset Marketing Certificate
    Program, CU outlined guidelines for maintaining an active certificate such as reviewing
    newly issued guidance (directive, circulars, closing procedures, etc.) and completing semi-
    annual asset marketing review exercises, or equivalent training.

•   CU also told us that they have used Kirkpatrick Training Model level III-type evaluations to
    assess FISs who recently participated in two bank closings to assess, among other things,
    whether learned knowledge was used and sustained and if the employee would be able to
    train others on the learned knowledge.

These are positive actions, and we encourage CU to expand these, or similar, knowledge
retention strategies to all certificate holders and to work with DSC and DRR to ensure that the
revised deployment tracking system contains reliable information that can be used to monitor
continuing education and knowledge retention efforts.

Program Expansion Beyond Entry-Level Employees: In 2004 and 2005, the FDIC sent two
memoranda to FDIC employees indicating that the longer-term plan for the CEP was to
(1) expand the program to provide cross-training opportunities and expanded job knowledge and
skills to include employees from all divisions and offices and (2) extend the CEP to mid- and
senior-level positions. The FDIC has made progress in this area by awarding Claims and
BSA/Anti-Money Laundering Certificates to non-FIS employees and deploying non-FISs to
assist DRR. In addition, in 2008, the Corporation offered detail opportunities to all FDIC
employees to participate in the Claims, Franchise and Asset Marketing, and Asset Marketing
Certificate Programs.

Still, more work remains to realize the initial concept of expanding the CEP beyond entry-level
employees and the primary business lines. The downturn in the economy and credit crisis have
had a detrimental impact on the banking industry and increased the FDIC’s supervision and
resolution and receivership workload dramatically. These factors have justifiably necessitated
changes to the CEP. As discussed earlier in this report, CU has been responsive to stakeholder
needs and has made changes in order to provide FISs to DSC and DRR earlier in the CEP
development process.




                                                16
CU officials agree that while the Corporation has largely implemented the entry-level portion of
the CEP, more work is needed to expand the program to non-entry-level employees at some
point in the future. Given the state of the banking industry, we acknowledge it may not be
appropriate to expand the CEP until agency workloads and Corporate demands return to a more
manageable level.



OTHER MATTER

Recruitment
The CEP has become the primary means for filling new entry-level positions in DSC and DRR.
During our review, DSC regional and field office management raised several concerns about the
CEP recruiting process, including:

•   The FDIC’s national recruiting program does not fill vacancies in rural areas.
•   At each “Super Friday” recruiting event, only two or three regions are afforded the
    opportunity to hire staff.
•   FIS class size limitations (35 per class) do not address DSC’s staffing needs (only 5 or 6
    classes are scheduled per year).
•   The lag time between when an offer is made and/or accepted and the actual onboard date is
    too long. The Corporation has lost candidates as a result.
•   DSC examiners may not have been invited to attend recruiting training enabling them to
    become corporate recruiters with the ability to recruit at local schools within their respective
    field office locations.

We found that the FDIC has taken steps to enhance the Corporation’s recruiting program,
including revising the FDIC Careers Web site and updating and distributing new recruiting
materials, including a corporate brochure and a CEP brochure, for use at recruitment and
outreach events. We also interviewed CU, DOA HRB, and DSC Headquarters officials about
the specific concerns discussed above.

Filling Vacancies in Rural Areas: DOA HRB officials acknowledged there are situations
where the FDIC may face difficulties in filling positions for certain locations. Accordingly,
DOA is working on a targeted advertising strategy for “hard-to-fill” positions. To illustrate,
DOA’s 2008 Corporate Performance Objectives 1st Quarter Report (CPO III.2), states that
targeted advertising of “hard-to-fill” positions and placing vacancy announcements in prominent
publications and print media are being pursued to enhance awareness and profile, and creative
recruitment vehicles/forums are being explored.

DOA HRB also noted that two options are readily available to assist management in filling
positions in rural areas.




                                                 17
First, management can request HRB to post a vacancy announcement specifically for the hard-to-
fill location. HRB can take positive steps to ensure that local college and university placement
offices receive the announcement.

Second, management always has the option to fill the vacancy through the SCEP program. HRB
is available to assist management by posting a vacancy announcement specifically for the hard-
to-fill location and by working with the local manager to locate SCEP candidates to fill the
position. HRB will work with the local DSC manager to locate candidates for consideration.

Regional Representation at “Super Friday” Events: We learned that every FDIC region is
afforded the opportunity to participate in “Super Friday” events and to select candidates for hire.
DSC officials determine what regions and which DSC personnel will participate in “Super
Friday” events as well as the number of CEP FIS positions that need to be filled. HRB is
available to assist in a supporting role.

FIS Class Sizes: In regard to FIS class size, HRB told us that CU determines the size of the
class, but added that the FDIC’s recruiting strategy 15 provides flexibility in this regard and may
allow for changes to be made to the class size, if needed. As discussed earlier, CU has made
changes to the number and sizes of FIS classes in response to stakeholder concerns.

DSC provides information about the specific number of vacancies and locations to HRB
approximately two weeks before HRB refers candidates to DSC for consideration. HRB noted
that the number of vacancies actually filled is affected by the number and quality of candidates
who apply for particular locations. For example, some locations may attract a large number of
quality candidates while other locations may only attract a few applicants. Additionally,
management needs may change over time as was demonstrated in a recent “Super Friday” event
when supervisors were permitted to over hire in locations where the number of quality
candidates exceeded the number of vacancies.

Onboarding Lag Time: HRB implemented a process in late 2006 to help alleviate the concern
expressed about the lag time between when an offer is made and actual on-boarding. This
post-“Super Friday” selection process involves the recruiter serving in a “mentoring” role for the
applicants to whom the FDIC has extended offers. As part of that role, recruiters are asked to
maintain contact (every 3-4 weeks) with the candidates that were in their “Super Friday” group.

DSC and HRB also agreed in August 2008 to reduce the open period for CEP vacancy
announcements in order to reduce onboarding lag time. The announcements currently posted are
open for a period of 4 months as opposed to an open period of 1 year for past announcements.
Candidates applying under the current announcements can expect FDIC decisions on their
applications to be made in a shorter time period than in the past.



15
  The FDIC Recruitment Task Force developed the CEP Recruiting and Application Strategy in 2006. This
document includes a discussion of CEP recruiting efforts, key school selection criteria (including targeted schools),
professional associations and other organizations, scope of recruiting activities (including a definition of hard-to-fill
locations), and acceptance of applications.


                                                           18
HRB noted that merely looking at the time lag between the offer date and the entrance on duty
date does not always present the full picture and indicated that other factors should be considered
such as the time required for the candidate to complete his/her educational requirements. For
example, the candidate can be selected in November but may not complete the educational
requirements until the following May. HRB also noted that the FDIC, in many ways, mirrors
private sector practices by attempting to “lock in” talent at the earliest possible time although the
actual start date may be several months in the future. Finally, candidates may opt to select a
starting class several months in the future even though there is an earlier starting class available
because of personal reasons.

Opportunity to be Corporate Recruiters: We did not substantiate the concern that examiners
may not have been invited to attend recruiting training. We determined that recruiters are
identified and selected through the EOI process. The last EOI was issued in January 2008.
Recruiters were selected on February 15, 2008 for a 2-year term. Most of the recruiters are
examiners.

While the Corporation has taken steps to enhance the recruiting program, the FDIC would
benefit from improved coordination and communication of its recruiting activities for the CEP.
This would help to ensure that DSC field offices receive communications identifying
(a) approved recruitment and application strategies, (b) locations with resource needs, (c) nature
and location of targeted advertising of hard-to-fill positions, and (d) opportunities for recruiter
assignments and training.


OVERALL CONCLUSIONS AND RECOMMENDATIONS
The FDIC has made progress toward implementing the CEP, particularly with respect to hiring
employees and cross training them through certificate and commissioning programs. CU has
also drafted guidelines and procedures for the program and provided program results to key
stakeholders. Most FISs are pleased with the CEP, and FDIC management generally had
positive views regarding the program. Further, CU has been responsive to concerns or requests
for changes to the CEP. The FDIC has deployed a number of FISs and certificate holders to
assist with an increase in resolution activity, and DRR staff have been complimentary of FIS
efforts—an indication of the program’s positive impact to date.

We identified several areas for incremental program improvement as the Corporation continues
to refine the CEP related to finalizing policy, establishing performance goals, identifying and
measuring CEP costs, tracking deployments, ensuring knowledge retention, and clarifying plans
for expanding the program.

Accordingly, we recommend that the Chief Learning Officer:

   1) Finalize and issue the Corporate Employee Program directive and ensure it addresses:

       •   mission, desired program outcomes, and program scope;
       •   performance goals and measures;


                                                 19
       •   process for tracking program costs; and
       •   roles and responsibilities of all relevant divisions, offices, and committees.

   2) Establish CEP-specific performance goals and/or targets for gauging program success.

   3) Finalize the CEP cost management program code and consult with CEP stakeholders in
      DSC, DRR, and DOA regarding the appropriate program costs and cost allocations
      associated with implementing and sustaining the CEP to be included in the program code.

   4) Work with divisions, primarily DSC and DRR, to implement a CEP/certificate-holder
      tracking system. The tracking system should have the capability to track deployments
      and continuing education requirements for FISs and certificate holders in a manner that
      maximizes knowledge retention.

   5) Develop and implement a formal process for providing continuing education
      requirements for all certificate holders.

   6) Consult with the HRC regarding the status of, and continued appropriateness of, initial
      CEP strategies for expanding the CEP to mid- and senior-level FDIC employees and to
      non-business line disciplines once the financial services industry crisis moderates.


CORPORATION COMMENTS AND OIG EVALUATION
Corporate University provided a written response, dated December 12, 2008, to a draft of this
report. The response is presented in its entirety in Appendix VII. Management concurred with
recommendations 1, 2, 4, 5, and 6 and proposed actions to be implemented by November 2009
that were responsive to our recommendations. A summary of management’s response to the
recommendations is in Appendix VIII. These recommendations are considered resolved, but will
remain open until we have determined that agreed to corrective actions have been completed and
are responsive.

Management agreed with the intent of recommendation 3 but indicated that existing guidance
addressed the recommendation. A discussion of management’s response to recommendation 3
follows.

Recommendation 3: Finalize the CEP cost management program code and consult with
CEP stakeholders in DSC, DRR, and DOA regarding the appropriate program costs and
cost allocations associated with implementing and sustaining the CEP to be included in the
program code.

CU concluded that current guidance fulfills the intent of this recommendation. CU stated that
additional CEP cost management codes were implemented by DOF and CU prior to the receipt
of the draft report, although the specific approach that management adopted varies somewhat
from the approach recommended by the OIG. CU indicated that it held a series of working
sessions during the first half of 2008 with DOF, DIR, DRR, and DSC and reached a consensus


                                                20
on the establishment of a new program code and additional product codes as the most
appropriate method for capturing CEP cost information. Program code 67100 (Corporate
Employee Program) and the related product codes were implemented in the NFE system in June
2008, and instructions for use of the new codes were distributed to employees and supervisors in
November 2008. DOF provided our office with details of this information in November 2008
and asked that this recommendation be closed as of the final report issuance date.

DOF noted that program code 67100 was not designed to capture all of the cost elements
necessary to monitor the overall cost of the CEP. For example, the program code does not
capture course development or delivery costs. Such costs are captured in other product codes.
DOF suggested that the revised CEP directive contemplated in recommendation 1 would be the
appropriate place to specify which program codes, product codes, and/or other cost factors
should be considered in assessing overall program costs.

Based on CU’s response and additional discussions that we held with DOF subsequent to
issuance of our draft report, we concluded that management’s actions are sufficient to close this
recommendation.

CU’s response also included comments from DOA related to our discussion of the FDIC’s
Recruiting Program on pages 17 through 19. We revised our final report to address those
comments, where appropriate.




                                                21
                                                                                   Appendix I


                   OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the FDIC's efforts to implement the CEP by determining: (1) the
number of employees participating and the degree to which they have completed the program,
(2) whether the CEP has stated measurements for gauging program effectiveness, (3) participant
and management views on the benefits and success of the program, and (4) the extent to which
the CEP has produced cross-trained employees capable of responding to changes in examination
or resolution and receivership priorities.

We conducted our evaluation of the CEP in FDIC divisions and offices located in Washington,
DC and Arlington, Virginia. After our evaluation of CEP documentation and discussions with
CU and other FDIC officials affiliated with the CEP, we learned that the FISs have a 2-week
rotation in the Division of Insurance and Research (DIR). Therefore, we decided not to
interview DIR officials and focus on obtaining the views of the HRB, DSC and DRR officials
who are more heavily involved in the CEP program. Also, during the fieldwork of this
evaluation, we decided not to interview the FISs because of the increasing workloads in DSC and
DRR and because FISs had been previously surveyed, and their views regarding the program
were known.

Scope and Methodology

To accomplish our objectives, we performed the following:

   •   Researched and reviewed:
          o Donald Kirkpatrick’s Learning and Training Evaluation Theory
          o The Next Generation of Corporate Universities: Innovation Approaches For
              Developing People and Expanding Organizational Capabilities, edited by Mark
              Allen
   •   Reviewed the following documents:
          o FDIC’s Strategic Plan for 2005-2010
          o FDIC’s Corporate Performance Objectives for 2005 through 2008
          o FDIC’s Corporate Performance Objective Reports for 2006 through 2008
          o FDIC’s Annual Performance Plans for 2006 through 2008
          o FDIC’s Annual Reports for 2005 through 2007
          o 2006 through 2008 Operating Budgets
          o 2005 Letter to Stakeholders, 2nd quarter
          o Chairman’s Request for comments on the FDIC Strategic Plan Changes –
              Strategic Objectives
          o FDIC Circular 4000.2, Cost Management Program
          o FDIC Circular 4100.4, Corporate Planning and Budget Processes
          o FDIC Circular 2112.1, Student Educational Employment Program
          o FDIC hiring authority for the CEP
          o FDIC Employee Engagement Survey for 2007 administered by the Hay Group
          o FDIC’s Diversity Strategic Plan
          o FDIC’s Diversity Annual Reports for 2006-2008



                                              22
                                                                           Appendix I

       o FDIC Chairman’s Diversity Advisory Council (CDAC) Annual Reports 2005
           through 2007
       o Responses to issues from Annual Executive CDAC Meetings from 2006 through
           2008
       o FDIC Completed Corrective Action response to GAO Report 07-255 entitled,
           FDIC Human Capital and Risk Assessment Programs Appear Sound, but
           Evaluations of Their Effectiveness Should Be Improved
       o FDIC Expressions of Interest
       o FDIC Vacancy Announcements for FISs
       o FDIC Organization Charts
       o FDIC News Articles
       o FDIC recruitment materials for the CEP
       o FDIC Web sites
       o DRR’s Strategic Plan
       o DOA’s 2008 Corporate Performance Objectives 1st Quarter Report
       o DOA’s Staff Input for 2008 Budget and Planning Process
       o DOA Director’s statement before the Subcommittee on Oversight of Government
           Management, the Federal Workforce and the District of Columbia of the
           Committee on Homeland Security and Governmental Affairs, US Senate,
           September 27, 2005
       o Office of Enterprise Risk Management Risk Management Status Reports, 2007
           and 2008
       o DSC Memorandum System:
                Classification 2600, In Service Placement Opportunity Program, CEP,
                  February 1, 2005
                Classification 6630, Student Career Experience Program (SCEP)
                  Procedures, August 26, 2004
                Classification 2600, Examiner Training and Development Policy, July
                  2007
•   Obtained and reviewed CEP specific documents:
       o CEP Concept Paper, dated December 2004
       o CEP Recruitment & Application Strategy
       o Deputy to the Chairman and Chief Operating Officer’s memoranda
                Workforce Planning for the Future
                Corporate Employee Program
                Implementation of the Corporate Employee Program
                Corporate Employee Program Update-Phase One Implementation
       o CU’s Assurance Statements for 2007 and 2008
       o CU’s draft directive for the CEP
       o CU’s progress report to the HRC entitled, Progress Report to HRC from the CEP
           Development Taskforce, dated January 2005
       o CU’s report to the HRC entitled, Corporate Employee Program – New Hire
           Program Evaluation & Results, June 2005 – June 2007
       o CU’s Briefing on the CEP to the Chairman April 2008
       o CU’s on-line newsletter FIZ BIZ, Issues 1 – 4
       o CU’s reports on:



                                        23
                                                                                       Appendix I

                    FIS attrition
                    Projection of commissioned examiners
                    FIS class participant, duty station, discipline and graduation information
                    FIS class and hiring date rotation information
                    FIS and FDIC employee certificate holders and deployments
   •   Obtained and reviewed prior related OIG evaluation reports:
           o OIG Report No. 05-035 entitled, The FDIC’s Corporate University
           o OIG Report No. 07-001 entitled, Evaluation of the FDIC’s Succession Planning
               Efforts
   •   Obtained and reviewed prior related GAO reports:
           o GAO-04-546G entitled, Human Capital: A Guide for Assessing Strategic
               Training and Development Efforts in the Federal Government;
           o GAO-05-888 entitled, DHS Strategic Management of Training Important for
               Successful Transformation;
           o GAO-06-086 entitled, Securities and Exchange Commission: Some Progress
               Made on Strategic Human Capital Management; and
           o GAO-07-255 entitled, FDIC Human Capital and Risk Assessment Programs
               Appear Sound, but Evaluations of Their Effectiveness Should Be Improved
   •   Interviewed officials from GAO involved in government-wide human capital work.
   •   Interviewed FDIC officials in:
           o CU
           o DOA Human Resources
           o DOF
           o Legal Division
           o DRR
           o DSC headquarters, regional, and field office management
           o HRC members

We performed our evaluation from April 2008 through August 2008, in accordance with the
Quality Standards for Inspections.

Validity and Reliability of Data from Computer-Based Systems, and Fraud and Illegal Acts

Because our report conclusions were not based on computer-processed data, we did not test the
validity or reliability of any data from computer-based systems. CU does not have a formal
tracking system for the CEP; instead, CU uses an excel spreadsheet. CU was in the process of
developing a formal tracking system expected to be completed by the end of 2008.

The nature of our evaluation objectives did not require that we assess the possibility for fraud
and illegal acts. However, no instances of fraud and illegal acts came to our attention during our
evaluation.




                                                24
                                                                                                 Appendix II


                                    FIS CLASS INFORMATION
During our field work, CU had processed 15 CEP classes. Table 2 presents class size,
graduation, attrition, certificate, and commission information about each class.

Table 2: FIS Class Statistics

                                                                               DRR
                                                                               Franchise
                              # of FISs                       DRR              and Asset
                  # of FIS    graduated                       Claims           Marketing      DSC
Class             in Class    from 1st year      Attrition    Certificates     Certificates   Commissions
(1) 06/27/05      22          16                 11           11               N/A**          4
(2) 09/19/05      16          14                 3            9                N/A            -
(3) 10/31/05      26          24                 6            6                N/A            -
(4) 12/12/05      14          10                 3            4                N/A            -
(5) 02/06/06      26          25                 8            6                N/A            -
(6) 06/12/06      30          27                 6            2                N/A            -
(7) 07/24/06      35          31                 7            29               N/A            -
(8) 10/02/06      28          21                 8            21               N/A            -
(9) 02/05/07      35          31                 5            7                31             -
(10) 06/11/07     35          33                 4            34               0              -
(11) 07/23/07     36          N/A*               2            33               0              -
(12) 09/17/07     34          N/A*               2            0                34             -
(13) 10/29/07     27          N/A*               1            25               0              -
(14) 03/03/08     37          N/A*               1            33               0              -
(15) 06/09/08     33          N/A*               0            0                0              -
Total             434         232                67           220              65             4
Source: CU information.
*Classes are not scheduled to graduate until after July 2008.
**Franchise and Asset Marketing certificates were not available for earlier classes.




                                                         25
                                                                                                 Appendix III


                              CEP CHANGES FROM 2005 TO 2008
The FDIC has made changes to the CEP, as needed, based on feedback from the Chairman and
program stakeholders. Table 3 provides information about program changes.

Table 3: CEP Program Changes Since Program Inception
                                      Changes to the CEP Program as a      Changes to the CEP Program as
Initial CEP Program, June 2005        result of feedback from FISs and     requested by the FDIC Chairman
                                      supervisors in 2006/2007             in June 2008
First Year Rotation                   First Year Rotation                  First Year Rotation
• 52 weeks.                           • 52 weeks; however, CU changed      • Now 82 weeks.
                                          the length of the rotations in
                                          DRR and DSC.

Rotation Schedule                     Rotation Schedule                    Rotation Schedule
• Orientation - 1 week.               • Orientation - 1 week.              • Orientation- 1 week.
• Compliance - 13 weeks.              • Compliance - 13 weeks.             • Resolutions and Receivership -
• Resolutions and Receivership -      • Resolutions and Receivership -        21 weeks.
   13 weeks.                             10 weeks.                         • Risk Management - 41 weeks
• Risk Management - 6 weeks.          • Risk Management - 6 weeks.            (includes introduction to
• Insurance - 2 weeks.                • Insurance - 2 weeks.                  Examination School).
• Risk Management - 14 weeks.         • Risk Management - 17 weeks.        • Compliance - 13 weeks.
• Other - 3 weeks to allow for        • Other - 3 weeks to allow for       • Insurance - 2 weeks.
   flexibility, i.e., holidays and       flexibility, i.e., holidays and   • Other - 4 weeks to allow for
   vacation.                             vacation.                            flexibility, i.e., holidays and
                                                                              vacation.

Promotion potential                   Promotion potential                  Promotion potential
• CG-12 grade.                        • No change.                         • No change.

Program Requirements                  Program Requirements                 Program Requirements
• FISs have to obtain one             • No change.                         • Eliminated the requirement that
   certificate in an area different                                            FISs have to earn a second
   from their commissioning                                                    certificate in order to be eligible
   track.                                                                      for commission.
• As a requirement for                                                     • For classes 1-6 changed the
   promotion to the grade 12,                                                  requirement that FISs have to
   FISs have to earn a second                                                  earn a certificate in order to be
   certificate in an area different                                            eligible for a promotion to a
   from their commissioning                                                    grade CG-11 – deferred to grade
   track.                                                                      CG-12.
                                                                           • For classes 7 and beyond, FISs
                                                                               have to earn one certificate in
                                                                               order to be eligible for
                                                                               promotion to a CG-11.
Recruitment Strategy                  Recruitment Strategy                 Recruitment Strategy
• Corporate Recruiters visit          • CEP “Super Friday” recruiting      No change.
   some of the targeted schools          events were added.
   and organizations throughout
   the year.
• Candidates apply for positions.
• 5 to 6 events held per year.
• Offers made.


                                                       26
                                                                                            Appendix III


                                    Changes to the CEP Program as a      Changes to the CEP Program as
Initial CEP Program, June 2005      result of feedback from FISs and     requested by the FDIC Chairman
                                    supervisors in 2006/2007             in June 2008
FIS Classes                         FIS Classes                          FIS Classes
    • 4 classes per year.           • 4 to 5 classes per year.           • Added three summer classes.
    • Class size is 30.                                                  • A class will be added in January
                                                                             2009.
                                                                         • Have the flexibility to add a
                                                                             September class if needed.

Supervisor/Coaches Training         Supervisor/Coaches Training          Supervisor/Coaches Training
• Supervisor orientation sessions   • Coaches’ training was developed    • No change.
   conducted to communicate            and sessions conducted.
   program requirements.

Communication                       Communication                        Communication
• Published FDIC News articles      • The CLO meets with FISs            • No change.
   to increase awareness of the        during field office visits.
   program.                         • CEP Program Director attends
                                       regional and field office
                                       meetings and conferences.
                                    • Started FIS BIZ – on-line
                                       newsletter for FISs and
                                       stakeholders.

CEP Organizational Structure        CEP Organizational Structure         CEP Organizational Structure
• CEP Director.                     • CU gained approval for a new       • Added to term positions:
• Program Specialist.                  organizational structure of the      -CEP Liaison Team Lead.
• Administrative Specialist.           CEP to enhance the program to        -Program Assistant.
                                       include:
                                          -Assistant CEP Director,
                                            Performance Management.
                                         -Assistant CEP Director,
                                           Program Administration.
                                         -4 new Program Specialists.
                                    • A CU liaison was appointed for
                                       each class. CU conducts
                                       periodic training. These are
                                       detail positions.

Source: OIG summary of documentation provided by CU.




                                                     27
                                                                                  Appendix IV


                               CEP FIS BENCHMARKS
CU has identified CEP Benchmarks that provide guidelines for completing the first-year FIS
training. The CEP Benchmarks, which must be successfully completed to move to the second
year of the program, include:

•   Bank Operations Training – participate in formal training and self-study programs and
    attain a score of at least 75 percent on the end-of-course test.
•   Division of Supervision and Consumer Protection-Compliance – participate in formal
    training, self-study programs, and on-the-job training in compliance examinations, including
    the preparation of bank information and document requests, meeting with bank management,
    conducting interviews with bank personnel, and performing compliance reviews for
    technical compliance with federal laws and regulations related to lending and other areas.
•   Accounting Fundamentals – participate in self-study of Accounting Fundamentals and
    receive a passing score of 75 percent on the Accounting Fundamentals Assessment.
•   Division of Resolutions and Receiverships – demonstrate a general understanding of FDIC
    Deposit Insurance Rules and Regulations, processes associated with uninsured and general
    creditor claims, complete the Claims Web-based training course and pass a written
    assessment, participate in Franchise Marketing and Asset Marketing activities, complete the
    Receivership Accounting and Proforma training, and demonstrate a comprehensive
    understanding of Settlements.
•   DSC Risk Management – participate in formal training, self-study programs, and on-the-
    job training in risk management examinations, including evaluating the asset quality of the
    bank, reviewing pre-exam information, assisting in risk analysis, interacting with bank
    personnel, and participating in a self-study of Introduction to Bank Accounting (Cash and
    Investments Assessment, Loans Assessment, Subsidiaries Audit and Other Assessment, and
    Capital and Income Assessments) with a passing score of 75 percent on each of the sections.
•   Division of Insurance and Research – acquire knowledge of the types of data and methods
    of collecting data in DIR and the Risk Analysis Center, demonstrate skill in using risk
    analysis tools for banking and economic analysis, demonstrate knowledge of emerging risks
    in banking, and acquire knowledge of the Risk Related Premium System and the Center for
    Financial Research.




                                              28
                                                                                                      Appendix V


                       CEP ROTATIONAL YEAR PROGRAM COSTS
  In its Corporate Employee Program New Hire Program report, dated July 2007, CU estimated
  CEP training costs for the first rotational year of the program to be $44,000 per student. Table 4
  presents a breakout of those costs.

 Table 4: Yearly Program Costs
  COST         2006      2007                     2008           2009           2010        TOTALS
ELEMENT
DRR Course*        $3,160,000    $2,993,000     $2,571,000      $2,571,000   $2,571,000
FIS Time           $1,882,000    $1,986,000     $1,866,000     $186,600**    $1,866,000
Total DRR          $5,042,000    $4,979,000     $4,437,000      $2,757,600   $4,437,000     $21,652,600
# FISs                    123           121            120             120          120             604
Per FIS Cost                                                                                    $35,849

DIR Course***        $312,000      $219,000       $293,000       $293,000      $293,000
FIS Time             $275,000      $210,000       $287,000       $287,000      $287,000
Total DIR            $587,000      $429,000       $580,000       $580,000      $580,000      $2,756,000
#FISs                     115            88            120            120           120             563
Per FIS Cost                                                                                     $4,895

Orientation          $149,000      $134,000       $134,000       $134,000      $134,000
FIS Time             $141,000      $144,000       $144,000       $144,000      $144,000
Total                $290,000      $278,000       $278,000       $278,000      $278,000      $1,402,000
#FISs                     118           120            120            120           120             598
Per FIS Cost                                                                                     $2,344

Graduation-           $56,000      $117,000       $107,000       $107,000      $107,000
Travel
FIS Time              $19.000       $39,000        $36,000        $36,000       $36,000
Total                 $75,000      $156,000       $143,000       $143,000      $143,000        $660,000
#FISs                      63           131            120            120           120             554
Per FIS Cost                                                                                     $1,191

TOTALS                                                                                             $44,280
 Source: Corporate University.
 *Includes expenses for instructors, travel, subject matter experts, information system development, and contractors.
 **As provided by CU. This number probably should be $1,866,000. We notified CU of this apparent mathematical
 error in its calculations. Using $1,866,000 would increase the per student, rotational year cost to $47,060.
 ***Includes expenses for instructors, travel, and information system development.




                                                          29
                                                                                      Appendix VI


                             CU SURVEY RESULTS OF THE FISs
The following figures present the results of CU surveys of FISs at the end of the first rotational
year of the CEP.

Figure 1: CEP Program Satisfaction Ratings




Source: CU FIS Survey Results.


Figure 2: FISs’ Views on Ability to Perform Business Line Work




Source: CU FIS Survey Results.




                                                30
                       APPENDIX VII

CORPORATION COMMENTS
     Appendix VII




32
     Appendix VII




33
     Appendix VII




34
     Appendix VII




35
                                                                                                                     Appendix VIII



                               MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

                                                                                                            Open
 Rec.                                                            Expected          Monetary   Resolved:a     or
Number     Corrective Action: Taken or Planned/Status         Completion Date      Benefits   Yes or No    Closedb
  1       CU will finalize the Corporate Employee              March 31, 2009        $0          Yes        Open
          Program Directive to address the items listed in
          the recommendation.

   2      CU will collaborate across the organization and      March 31, 2009         $0         Yes        Open
          establish CEP-specific annual performance
          goals and/or targets for gauging program
          success and continuous improvement.


   3      CU concluded that current guidance addresses        November 2, 2008        $0         Yes       Closed
          this recommendation. Specifically, CU cited
          the implementation of program code 67100
          (Corporate Employee Program) and related
          product codes in June 2008 and the distribution
          of instructions for program and program code
          use in November 2008.

   4      CEP, DSC, and DRR are working to create a           September 30, 2009      $0         Yes        Open
          data base for tracking certifications, deployment
          of certificate-holders, and the completion of
          continuing education requirements.




                                                                      36
                                                                                                                                            Appendix VIII

                                                                                                                                  Open
 Rec.                                                                     Expected             Monetary      Resolved:a            or
Number           Corrective Action: Taken or Planned/Status            Completion Date         Benefits      Yes or No           Closedb
  5             CU assigned responsibility for the certificate        November 30, 2009          $0             Yes               Open
                program to the Dallas Associate Chief Learning
                Officer and hired staff in the fourth quarter of
                2008 to ensure continuing education
                requirements are met. CU notifies certificate
                holders of recurring training requirements as
                they graduate from the program. CU expects to
                establish recurring training requirements for
                certificates in November 2009.

      6         CU has and will continue to report information         December 12, 2008           $0            Yes              Open
                concerning participation in CEP programs
                including certification programs by mid- and
                senior-level FDIC employees and by non-
                business line divisions. Additionally, CU
                continues to consult with the HRC regarding the
                status of and continued appropriateness of initial
                CEP strategies for expanding the CEP to those
                groups of employees. CU will include this
                information in its next report to the HRC.

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.

          b
              Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive, the recommendation can be closed.




                                                                                37
